                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-03415-31


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

        Michael E. DeBakey 

         VA Medical Center 

          Houston, Texas 





January 8, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       MI         motivational interviewing
                       MH         mental health
                       NM         not met
                       OIG        Office of Inspector General
                       OPC        Outpatient Clinic
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         Registered Nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                             CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives, Scope, and Methodology.......................................................................                         1

  Objectives ...............................................................................................................      1

  Scope......................................................................................................................     1

  Methodology ...........................................................................................................         2


Results and Recommendations ................................................................................                      3

  EOC ........................................................................................................................    3

  AUD ........................................................................................................................    5

  Medication Management.........................................................................................                  7

  DWHP Proficiency ..................................................................................................             8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           9

  B. PACT Compass Metrics ....................................................................................                   11

  C. VISN Director Comments ..................................................................................                   15

  D. Facility Director Comments ...............................................................................                  16

  E. OIG Contact and Staff Acknowledgments .........................................................                             19

  F. Report Distribution .............................................................................................           20

  G. Endnotes ...........................................................................................................        21





VA OIG Office of Healthcare Inspections
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected activities to
determine whether the community based outpatient clinics (CBOCs) and primary care
clinics provide safe, consistent, and high-quality health care for our veterans.
We conducted a site visit during the week of November 4, 2013, at the following
randomly selected CBOC under the oversight of the Michael E. DeBakey
VA Medical Center, which is located in Veterans Integrated Service Network 16:

    Richmond VA Outpatient Clinic, Richmond, TX

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care and Designated Women’s Health Providers’ Proficiency reviews.
However, we made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Registered Nurse Care Managers receive motivational interviewing within 12 months
      of appointment to Patient Aligned Care Teams (PACT).

	    Registered Nurse Care Managers receive health coaching training within 12 months
      of appointment to PACT.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where medications were administered, prescribed, or modified.

	    Document the evaluation of the patient’s level of understanding for the medication
      education.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C-D,
pages 15–16, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                      i
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                Objectives, Scope, and Methodology 

Objectives
CBOC and PCC reviews are elements of the OIG’s efforts to ensure that our Nation’s
veterans receive high-quality VA health care services. As such, CBOC and PCC
reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

   	   Determine whether the CBOCs are compliant with EOC requirements.

   	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
        care of patients with AUD.

   	   Determine compliance with requirements for the clinical oversight and patient
        education of fluoroquinolones for outpatients.

   	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees.
The review covered the following four focused review topics:

   	   EOC

   	   AUD

   	   Medication Management

   	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.




VA OIG Office of Healthcare Inspections                                                      1
                          CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
Medication Management, and DWHP Proficiency focused reviews are noted in Table 1.

Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               Alcohol Use Disorders Identification Test Consumption scoreb
                               and all providers and RN Care Managers assigned to PACT
                               prior to October 1, 2012.
        Medication             All outpatients with an original prescription ordered for one of
       Management              the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




a
 Includes 93 CBOCs in operation before March 31, 2013. 

b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active 

alcohol use disorders. Scores range from 0-12.



VA OIG Office of Healthcare Inspections                                                                            2
                                CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Richmond CBOC.
The table below shows the areas reviewed for this topic. The facility generally met
requirements. We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.




VA OIG Office of Healthcare Inspections                                                                3
                                CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


NM                     Areas Reviewed                                      Findings
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       PII is protected on laboratory specimens
       during transport so that patient privacy is
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not visible or unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The Information Technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an AED.
       AED batteries are current (within the
       manufacturer’s posted expiration date).
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       VA and Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                4
                                CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 14 (35 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute of Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 32 (57 percent) of 56 RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 30 (54 percent) of 56 RN Care
       received National Center for Prevention            Managers did not receive health coaching
       approved health coaching training (most likely     training within 12 months of appointment to
       TEACH for Success) within 12 months of             PACT.
       appointment to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    5
                                CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


Recommendations

1. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.

2. We recommended that CBOC/PCC RN Care Managers receive MI training within
12 months of appointment to PACT.

3. We recommended that CBOC/PCC RN Care Managers receive health coaching training
within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                6
                                CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


Medication Management
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                     Areas Reviewed                                      Findings
  X     Clinicians documented the medication            We did not find documentation that medication
        reconciliation process that included the        reconciliation was completed in 11 (28 percent)
        fluoroquinolone.                                of 40 patient EHRs.
        Written information on the patient’s
        prescribed medications was provided at the
        end of the outpatient encounter.
        Medication counseling/education for the
        fluoroquinolone was documented in the
        patients’ EHRs.
  X     Clinicians documented the evaluation of each    Clinicians did not document the level of
        patient’s level of understanding for the        understanding for 10 (25 percent) of 40 patients.
        education provided.
        The facility complied with local policy.

Recommendations

4. We recommended that CBOC/PCC staff document that medication reconciliation was
completed at each episode of care where medications were administered, prescribed, modified
or may influence care given.

5. We recommended that CBOC/PCC staff document the evaluation of patient’s level of
understanding for the medication education.




VA OIG Office of Healthcare Inspections                                                                     7
                                CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, primary care management
module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic.           The facility generally met requirements.
We made no recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.




VA OIG Office of Healthcare Inspections                                                                8
                                                                    CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                                                                  Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                  Uniquesd                                   Encountersd

                            Station                   CBOC
    Location       State               Localitye                  MHg       PCh        Otheri       All        MHg        PCh       Otheri        All
                               #                       Sizef
                                                       Very
Beaumont             TX     580BY        Urban                   2,497      9,795      10,613     10,834      9,116      41,827     56,253     107,196
                                                      Large
Conroe               TX     580GD        Urban        Large      2,159      8,440      6,272       9,155      8,329      17,433     21,249      47,011
Galveston
                     TX     580GC        Rural        Large      1,747      5,878      6,269       7,691     10,145      14,368     19,519      44,032
County
Charles Wilson
                     TX      580BZ       Rural        Large      1,729      6,249      7,352       7,493      8,961      14,709     50,477      74,147
VA OPC
Richmond             TX     580GG        Urban       Mid-Size     956       3,337      2,956       3,880      3,000      8,488      10,329      21,817
Lake Jackson         TX     580GF        Urban       Mid-Size     609       2,005      1,958       2,425      2,286      5,870      7,987       16,143
Katy                 TX     580GE        Urban       Mid-Size     368       1,265      1,077       1,961       648       1,613      1,622        3,883




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                   9
                         CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.
           CBOC            Specialty Care Servicesj         Ancillary Servicesk          Tele-Health Servicesl
    Beaumont                    Optometry                       Laboratory                 Tele Primary Care
                            Medicine Specialties                Audiology                      Tele Case
                              Anesthesiology                    Radiology                    Management
                               Hematology               Diabetic Retinal Screening
                                 Oncology                      Social Work
                                                           Electrocardiography
                                                                 Nutrition
                                                                 Pharmacy
                                                             Sleep Medicine
                                                              Vascular Lab
    Conroe                       Orthopedics            Diabetic Retinal Screening         Tele Primary Care
                            Ear, Nose and Throat                Pharmacy                       Tele Case
                                 Hematology                  Sleep Medicine                  Management
                                                               Social Work
                                                                             m
                                                            MOVE! Program
    Galveston County              Optometry             Diabetic Retinal Screening         Tele Primary Care
                                                                Radiology
                                                                Audiology
                                                                Pharmacy
                                                               Social Work
                                                             MOVE! Program
                                                             Sleep Medicine
    Charles Wilson VA           Optometry                       Laboratory                 Tele Primary Care
    OPC                     Medicine Specialties                Radiology
                                 Oncology               Diabetic Retinal Screening
                                                           Electrocardiography
                                                             MOVE! Program
                                                             Sleep Medicine
                                                                 Nutrition
                                                               Social Work
                                                                Pharmacy
                                                              Vascular Lab
    Richmond                          ---                       Audiology                  Tele Primary Care
                                                                Radiology
                                                                Pharmacy
                                                               Social Work
    Lake Jackson                      ---                       Radiology                  Tele Primary Care
                                                                Pharmacy
                                                               Social Work
                                                             MOVE! Program
                                                             Sleep Medicine
    Katy                          Optometry             Diabetic Retinal Screening         Tele Primary Care
                                                                Audiology
                                                               Social Work
                                                                Pharmacy

j
  Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

k
  Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

l
  Tele Health Services refer to services provided under the VA Tele Health program (http://www.telehealth.va.gov/) 

m
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

VA OIG Office of Healthcare Inspections                                                                         10
                                                                                            CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                                                                                          Appendix B


                                                                                 PACT Compass Metrics

                                                               FY 2013 Average 3rd Next Available in PC Clinics
                                                    60.0


                                                    50.0
    Average Number of Days




                                                    40.0


                                                    30.0


                                                    20.0


                                                    10.0


                                                        0.0
                                                                         NOV                                 MAR               MAY                        AUG
                                                              OCT FY13          DEC FY13 JAN FY13 FEB FY13          APR FY13          JUN FY13 JUL FY13          SEP FY13
                                                                         FY13                                FY13              FY13                       FY13
                             VHA Total                          14.6     15.2     13.8     14.0     14.8     13.3     14.4     16.0     14.2     14.6     15.7     13.4
                             Houston (580)                      26.6     28.7     23.8     26.6     26.8     19.2     20.4     22.4     17.2     17.3     20.7     15.6
                             Beaumont (580BY)                   24.8     15.7     33.0     31.9     41.8     35.9     43.1     43.0     39.9     15.3     33.2     13.2
                             Charles Wilson VA OPC (580BZ)      18.1     16.9     23.2     19.9     10.9     12.0     14.3     15.1     9.6      14.5     11.9     10.0
                             Galveston County (580GC)           38.5     31.4     31.3     22.7     27.1     17.5     21.2     32.8     25.8     44.6     48.6     32.5
                             Conroe (580GD)                     13.5     13.9     15.7     15.1     17.1     11.0     17.5     13.8     19.1     23.8     19.0     16.4
                             Katy (580GE)                        0        0        0        0        0        0        0       25.7     22.5     14.0     8.3      9.2
                             Lake Jackson (580GF)               27.5     27.9     18.7     34.5     47.6     11.0     26.4     35.7     16.7     16.6     17.4     20.0
                             Richmond (580GG)                   34.1     42.0     35.7     34.2     32.3     30.4     21.2     17.9     14.4     21.9     17.3     20.0

Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                                     11
                                                                                                   CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                                                                   FY 2013 Established  PC  Prospective  Wait  Times  7 Days
                                                         100%



                   Percentage  of  Patients Scheduled    80%
                    Within  7 Days  of Desired  Date



                                                         60%




                                                         40%




                                                         20%




                                                          0%
                                                                OCT  FY13 NOV  FY13 DEC FY13 JAN  FY13   FEB FY13 MAR  FY13 APR  FY13 MAY  FY13 JUN  FY13   JUL  FY13 AUG  FY13 SEP  FY13
     VHA   Total                                                 83.5%     81.1%     82.4%     82.6%      83.2%     83.6%     84.0%     84.0%     84.1%      84.3%     84.5%      84.7%
     Houston  (580)                                              88.8%     84.5%     84.6%     84.7%      85.1%     85.8%     86.1%     85.4%     85.2%      84.4%     83.3%      84.7%
     Beaumont   (580BY)                                          86.7%     82.1%     84.5%     88.0%      91.5%     92.0%     93.5%     94.1%     92.8%      94.4%     94.9%      95.9%
     Charles  Wilson  VA  OPC (580BZ)                            96.7%     96.8%     97.2%     97.5%      97.4%     97.2%     97.5%     97.6%     97.7%      97.5%     97.5%      97.8%
     Galveston  County  (580GC)                                  66.8%     50.1%     54.1%     56.4%      60.0%     62.2%     63.7%     66.0%     67.8%      65.9%     66.5%      67.4%
     Conroe  (580GD)                                             87.1%     83.1%     86.2%     88.7%      88.4%     89.0%     90.2%     91.0%     92.1%      91.4%     91.3%      91.5%
     Katy  (580GE)                                                                                                            90.8%     73.7%     70.2%      66.3%     62.1%      59.4%
     Lake   Jackson (580GF)                                      85.2%     83.0%     81.5%     73.0%      78.3%     74.3%     70.7%     78.5%     89.0%      83.5%     82.8%      83.4%
     Richmond  (580GG)                                           53.6%     53.3%     57.5%     62.5%      61.2%     53.2%     48.8%     42.3%     44.1%      53.8%     56.2%      58.9%



Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in PCCs 322, 323, and 350. Data is collected twice a month on the 1st and the
15th. Data reported is for the data pulled on the 15th of the month. There is no fiscal year to date score for this measure. Blank cells indicate the absence of
reported data.
VA OIG Office of Healthcare Inspections                                                                                                                                                     12
                                                                                                 CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                                                                           FY 2013 Ratio of ER Encounters While on Panel to

                                                                            PC Encounters While on Panel (FEE ER Included)

                                                                   22%




                    Percentage of ER Encounters to PC Encounters
                                                                   20%
                                                                   18%
                                                                   16%
                                                                   14%
                                                                   12%
                                                                   10%
                                                                   8%
                                                                   6%
                                                                   4%
                                                                   2%
                                                                   0%
                                                                         OCT     NOV     DEC      JAN      FEB    MAR     APR     MAY     JUN      JUL    AUG      SEP
                                                                         FY13    FY13    FY13     FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13
        VHA Total                                                        16.3%   16.3%   16.4%    16.3%   16.3%   16.3%   16.1%   16.1%   16.0%   15.9%   15.8%   15.7%
        Houston (580)                                                    18.1%   18.3%   18.6%    18.8%   18.9%   18.9%   18.8%   19.1%   19.5%   19.9%   20.2%   20.5%
        Beaumont (580BY)                                                 5.4%    5.4%    5.4%     5.3%    5.3%    5.2%    5.1%    5.1%    4.8%    4.7%    4.7%    4.8%
        Charles Wilson VA OPC (580BZ)                                    6.6%    6.6%    6.8%     6.8%    6.8%    6.8%    6.6%    6.4%    6.6%    6.5%    6.5%    6.4%
        Galveston County (580GC)                                         9.6%    9.9%    9.7%     9.5%    9.4%    9.5%    10.5%   10.2%   10.4%   10.2%   10.1%   9.9%
        Conroe (580GD)                                                   9.5%    9.6%    9.6%     9.6%    9.8%    10.1%   10.0%   10.0%   10.0%   9.6%    9.7%    9.9%
        Katy  (580GE)                                                                                                     0.0%    6.8%    9.7%    11.1%   10.8%   11.3%
        Lake Jackson (580GF)                                             8.6%    8.3%    7.7%     7.7%    7.7%    7.7%    7.6%    7.9%    8.2%    8.5%    8.8%    8.8%
        Richmond (580GG)                                                 9.0%    9.1%    9.4%     9.4%    9.4%    9.9%    10.2%   10.3%   10.5%   10.5%   10.8%   11.0%



 Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the
 total VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                                   13
                                                                   CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX



                                              FY 13 2‐Day Contact Post Disharge Ratio
       100%
        90%
        80%
        70%
        60%
        50%
        40%
        30%
        20%
        10%
         0%
                                                          Charles Wilson   Galveston
                                              Beaumont                                     Conroe                     Lake Jackson   Richmond
                 VHA Total    Houston (580)                  VA OPC          County                    Katy (580GE)
                                               (580BY)                                    (580GD)                       (580GF)       (580GG)
                                                             (580BZ)        (580GC)
     OCT FY13      52.8%         56.9%          40.4%         63.8%          17.5%         56.5%                         50.0%         73.3%
     NOV FY13      52.9%         46.5%          43.4%         50.0%          45.7%         59.0%                         93.3%         50.0%
     DEC FY13      51.5%         40.2%          50.0%         65.9%          43.1%         63.2%                         61.5%         67.9%
     JAN FY13      57.2%         49.9%          56.9%         45.2%          54.8%         72.0%                         94.7%         76.9%
     FEB FY13      60.4%         47.1%          82.5%         63.5%          60.5%         77.4%                         47.1%         61.5%
     MAR FY13      64.4%         51.4%          70.7%         83.3%          60.5%         82.8%                         52.0%         54.3%
     APR FY13      65.5%         59.8%          81.8%         88.9%          41.0%         75.3%           0.0%          57.9%         60.7%
     MAY FY13      66.1%         62.5%          77.1%         80.5%          65.2%         89.5%          46.2%          55.6%         79.2%
     JUN FY13      70.1%         64.7%          70.0%         77.1%          60.7%         87.2%          72.7%          52.4%         86.4%
     JUL FY13      71.1%         61.6%          70.5%         91.7%          78.6%         84.2%          87.1%          76.2%         91.7%
     AUG FY13      72.7%         76.4%          78.6%         95.6%          88.7%         73.8%          85.3%          85.7%         87.5%
     SEP FY13      68.9%         69.4%          79.2%         73.9%          80.4%         65.6%          60.0%          85.0%         71.4%


 Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
 care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
 excluded from this metric. Blank cells indicate the absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                                 14
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       December 17, 2013

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	 CBOC and PCC Reviews at Michael E. DeBakey 

                  VA Medical Center, Houston, TX 


             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Acting Director, Management Review Service
                       (VHA 10AR MRS OIG CAP CBOC)

      1. 	 The South Central VA Health Care Network (VISN 16) has reviewed and concurs with
           the draft Community Based Outpatient Clinic and Primary Care Clinic Report
           submitted by the Michael E. DeBakey VA Medical Center, Houston, TX.

      2. 	 If you have questions regarding the information submitted, please contact Reba T.
           Moore, VISN16 Accreditation Specialist at 601-206-7022.




VA OIG Office of Healthcare Inspections                                                        15
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


           Date:       December 17, 2013

          From:        Director, Michael E. DeBakey VA Medical Center (580/00)

       Subject: 	 CBOC and PCC Reviews at Michael E. DeBakey 

                  VA Medical Center, Houston, TX 


             To:       Director, South Central VA Health Care Network (10N16)

      1. 	 The Michael E. DeBakey VA Medical Center has reviewed and concurs with the
           findings included in the draft Community Based Outpatient Clinic and Primary Care
           Clinic Report. A response is provided along with target dates of completion for each
           recommendation.

      2. 	 If you have questions or need additional information, please contact Marcella Louis,
           Director, Quality Management Service at 713-794-8926 or Marcella.louis@va.gov.




VA OIG Office of Healthcare Inspections                                                           16
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: January 15, 2014

Facility response: The Alcohol Use Clinical Reminder template for providers has been
revised to include further diagnostic assessments for patients with a positive alcohol
screen. CBOC and Primary Care providers will be educated on the revised template.
Monthly monitoring will be conducted with reporting to the Clinical Executive Board.



Recommendation 2. We recommended that CBOC/PCC RN Care Managers receive
MI training within 12 months of appointment to PACT.

Concur

Target date for completion: February 15, 2014

Facility response: Trainings have been scheduled to begin in January 2014 and will be
conducted monthly. The target audience is all existing RN Care Managers, as well as
all new appointments to PACT to ensure completion within 12 months of appointment.
Monthly monitoring will be conducted with reporting to the Clinical Executive Board.



Recommendation 3. We recommended that CBOC/PCC RN Care Managers receive
health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: February 15, 2014

Facility response: Trainings have been scheduled to begin in January 2014 and will be
conducted every other month. The target audience is all existing RN Care Managers,
as well as all new appointments to PACT to ensure completion within 12 months of
appointment. Monthly monitoring will be conducted with reporting to the Clinical
Executive Board.



VA OIG Office of Healthcare Inspections                                                     17
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX


Recommendation 4.         We recommended that CBOC/PCC staff document that
medication reconciliation was completed at each episode of care where medications
were administered, prescribed, modified or may influence care given.

Concur

Target date for completion: February 15, 2014

Facility response: CBOC/PCC management will conduct training for providers to
reiterate medication reconciliation documentation requirements. Monthly monitoring will
be conducted with focused training and follow-up for evidence of continued non-
compliance. Results of monitoring will be reported to the Clinical Executive Board.



Recommendation 5.           We recommended that CBOC/PCC staff document the
evaluation of patient’s level of understanding for the medication education.

Concur

Target date for completion: January 30, 2014

Facility response: The existing Computerized Patient Record System (CPRS)
medication reconciliation template will be modified to include language that
demonstrates the level of understanding of medication education for the
patient/caregiver whenever there is a modification in the medication regimen. This
documentation will be completed by the provider as part of the medication reconciliation
process. Monthly monitoring of documentation of the patient’s level of understanding of
medication education will be conducted with reporting to the Clinical Executive Board.




VA OIG Office of Healthcare Inspections                                                     18
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Rose Griggs, MSW, LCSW, Team Leader
Contributors            Larry Ross, MS
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Cathleen King, MHA, CRRN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     19
                      CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Michael E. DeBakey VA Medical Center (580/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz
U.S. House of Representatives: Kevin Brady, John Culberson, Louie Gohmert,
 Al Green, Michael T. McCaul, Pete Olson, Mac Thornberry, Randy Weber


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     20
                        CBOC and PCC Reviews at Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                      Appendix G

                                              Endnotes 


1
  References used for the EOC review included:
  United States Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2,
   2002.
 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
   Privacy Rule, August 14, 2002.
 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
 The Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
 VA Directive 324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
 VHA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
 VHA Handbook 1250.05, Interior Design Operations and Signage, July 1, 2011.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
2
  References used for the AUD review included:
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
3
  References used for the Medication Management review included:
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 The Joint Commission Standards for Acute Care Hospitals, Medication Management (MM.05.01.01).

 VHA Directive 2012-011 Primary Care Standards, April 11, 2012. 

 The Joint Commission Standards for Acute Care Hospitals, Medication Management (MM.06.01.01)

4
  References used for the DWHP review included:

 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010. 

 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008. 

5
  Reference used for PACT Compass data graphs:

 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 





VA OIG Office of Healthcare Inspections                                                                    21
